     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region III
                                                                          Public Ledger Building, Suite 316
                                                                          150 S. Independence Mall West
                                                                          Philadelphia, PA 19106-3499

June 25, 2010

Report Number: A-03-09-00020

Ms. Debra Nuckols
Medicare Compliance Officer
Coventry Health Care, Inc.
700 American Avenue, Suite 300
King of Prussia, PA 19406

Dear Ms. Nuckols:

Enclosed is the U.S. Department of Health & Human Services, Office of Inspector General
(OIG), final report entitled Review of Coventry Health Care, Inc.’s 2007 Prescription Drug
Event Data Elements Related To Yearend Reconciliation. We will forward a copy of this report
to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-03-09-00020 in all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Timothy B. Hill, Deputy Director
Centers for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, MD 21244-1850
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL




    REVIEW OF COVENTRY HEALTH
   CARE, INC.’S 2007 PRESCRIPTION
    DRUG EVENT DATA ELEMENTS
RELATED TO YEAREND RECONCILIATION




                         Daniel R. Levinson
                          Inspector General

                             June 2010
                           A-03-09-00020
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Medicare Part D

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug program. Under Part D, which began January 1, 2006, individuals entitled to
benefits under Part A or enrolled in Part B may obtain drug coverage. The Centers for Medicare
& Medicaid Services (CMS) administers the Medicare Part D program.

CMS contracts with private entities called Part D sponsors that act as payers and insurers for
prescription drug benefits under Part D. Part D sponsors may contract with a pharmacy benefits
manager (PBM) to manage or administer the drug benefit on the sponsors’ behalf. PBM
responsibilities vary, but include services such as processing and paying prescription drug
claims, contracting with pharmacies, and negotiating rebates with drug manufacturers.

Part D sponsors, or their PBMs, contract with retail pharmacies and provide reimbursement for
prescription drugs dispensed to Part D beneficiaries. The sponsors pay pharmacies based on
detailed claims data supplied by the pharmacy at the point of sale.

Payment, Reconciliation, and Prescription Drug Event Records

Sections 1860D-14 and 15 of the Act provide that CMS pay plans for Part D benefits through
subsidies and risk sharing. CMS pays the subsidies prospectively throughout the plan year.
Pursuant to 42 CFR § 423.343, after the close of the plan year, CMS is responsible for
reconciling the prospective payments to the sponsor’s actual allowable costs to calculate final
payments and risk sharing amounts. CMS determines the plan’s actual allowable costs using
certain data elements submitted by sponsors on Prescription Drug Event (PDE) records.

Sections 1860D-15(c) (1)(C) and (d)(2) of the MMA require sponsors to submit data and
information necessary for CMS to carry out payment provisions. For every prescription filled,
the Part D sponsor or its PBM prepares and submits a PDE record to CMS. The PDE record
contains prescription drug cost and payment data that enables CMS to make payment to plans
and otherwise administer the Part D benefit. Specifically, CMS uses the following PDE cost and
payment fields in its year end reconciliation: gross drug cost above out-of-pocket threshold,
gross drug cost below out-of-pocket threshold, low-income cost-sharing subsidy, and covered D
plan paid amount (the four PDE data elements). The sponsor, or its PBM, calculates the four
data elements from the point-of-sale claims data submitted by the pharmacy using instructions
provided by CMS.




                                                1
Coventry Health Care, Inc., and Caremark Rx, LLC

As a Part D sponsor, Coventry Health Care, Inc. (Coventry), provided prescription drug coverage
to approximately 1 million beneficiaries and submitted over 34 million PDE records to CMS for
plan year 2007. For plan year 2007, Coventry contracted with Caremark Rx, LLC (Caremark),
to provide PBM services, including the creation of PDE records.

As Coventry’s PBM, Caremark processed prescription claims from pharmacies for each
dispensing event. Caremark used its claims software to process prescriptions at the point of sale
and to calculate the four PDE data elements. Caremark used these data elements, as well as
other Part D data, to create the PDE record. Coventry received PDE records from Caremark on a
bi-weekly basis. Coventry validated the PDE records by verifying certain PDE calculations and
conducting other quality assurance edits. Coventry then submitted the PDE records to CMS.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Coventry’s Part D PDE data elements used in
reconciliation were calculated accurately and in accordance with Federal requirements and
guidance for plan year 2007.

Scope

Our audit covered the period of January 1 through December 31, 2007. We reviewed PDE
records that Coventry submitted for 16 prescription drug plans. We reviewed only those internal
controls that pertained to the four PDE data elements used in reconciliation. We relied on
Caremark to provide the pharmacy claim data as submitted at the point of sale.

We performed our field work at Coventry’s offices in Harrisburg, Pennsylvania, and Glen Allen,
Virginia, in July and August 2009. We also performed field work at Caremark’s offices in
Scottsdale, Arizona, in November 2009.

Methodology

To accomplish our objectives, we:

   •    reviewed applicable Federal laws, regulations, and CMS guidance;

   •    interviewed CMS officials about the Federal requirements and guidance related to PDE
        calculations;

   •    obtained from CMS PDE records for dates of service January 1, 2007, through December
        31, 2007, that CMS processed for Coventry through May 12, 2009;

   •    selected and analyzed a judgmental sample of 30 PDE records;

                                               2
   •   interviewed Coventry officials to gain an understanding of Coventry’s PDE validation
       and submission processes;

   •   obtained and analyzed detailed claim information from Coventry for our sample items,
       including written prescriptions;

   •   interviewed Caremark’s officials to gain an understanding of the pharmacy claims
       process; PDE calculation, creation, and validation processes; and related internal
       controls;

   •   obtained from Caremark pharmacy claims data including, PDE data element calculations;

   •   verified the accuracy of the four PDE data elements as calculated by Caremark;

   •   reviewed Coventry’s policies and procedures related to validating and submitting PDE
       data to CMS; and

   •   reviewed Caremark’s policies and procedures related to PDE calculation, creation, and
       validation for the data elements under review.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

Coventry calculated the four PDE data elements used in reconciliation accurately and in
accordance with Federal requirements and guidance. Additionally, both Coventry’s and
Caremark’s internal controls provided reasonable assurance that the four PDE data elements
were adequately reviewed for basic quality assurance and accuracy. We are not submitting
recommendations to Coventry.




                                               3
